                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                      MEMORANDUM OF INVESTIGATION

 Case Nu11.1ber: 112070041                                                                   Page 1 of 1



          We received a request for assistance 1 from a local police department. 2 The request was honored
          and the appropriate information was provided.

          This investigative case is closed with no further action taken.




                                          Investigator                                    Date
Affix your signature;                                                  07/17/2012
Print your name; insert
date MOl completed.

NSF OIG Fonn 4 (11 /02)
